TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                           Trends in Compliance Activities
                              Through Fiscal Year 2008



                                           June 10, 2009

                              Reference Number: 2009-30-082




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                  June 10, 2009


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Trends in Compliance Activities Through
                               Fiscal Year 2008 (Audit # 200930007)

 This report presents the results of our review to provide statistical information and trend analyses
 of the data for Collection and Examination functions activities. We conduct this review each
 year and it is included as part of our Fiscal Year (FY) 2009 Annual Audit Plan under the major
 management challenge of Tax Compliance Initiatives.

 Impact on the Taxpayer
 This report is a compilation of statistical information reported by the Internal Revenue
 Service (IRS). We did not verify or validate the authenticity or reliability of the data and,
 therefore, did not identify any specific impact on the taxpayer. However, continued effort to
 improve compliance is important to reducing the tax gap1 and maintaining the integrity of the
 voluntary tax compliance system.

 Synopsis
 Overall, during FY 2008, many compliance activities summarized in this report showed only
 slight increases, or decreased. However, the levels of compliance activities are still higher than
 what occurred during the years immediately following implementation of the IRS Restructuring
 and Reform Act of 1998 (RRA 98).2 The increases occurred even though the combined

 1
  See Appendix IV for a glossary of terms.
 2
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                       Trends in Compliance Activities Through Fiscal Year 2008




enforcement staff level in the Collection and Examination functions is not significantly higher
than the 10-year low experienced in FY 2003. Both the Collection and Examination functions
plan to hire enforcement personnel during FY 2009, but part of the hiring is to account for
anticipated attrition.
While the IRS has reversed many of the enforcement declines in both the Collection and
Examination functions that occurred in the years immediately following passage of the RRA 98,
many of the results for FY 2008 slipped from the FY 2007 levels. The IRS noted that there were
some anomalies that made FY 2007 a record-breaking year which did not recur during FY 2008,
and some resources were redirected from enforcement during FY 2008 to support execution of
the economic stimulus program.
The Government Accountability Office continues to include enforcement of tax laws as 1 of
the 30 high-risk areas in the Federal Government in its most recent update.3 The Government
Accountability Office states that improvements in compliance with tax laws will require efforts
by the IRS and Congress.
After several years of improved results, many Collection function activities and results declined
during FY 2008. However, the results are still significantly higher than those during the years
immediately following the implementation of the RRA 98. The use of liens (a collection
enforcement tool) continued to increase and reached the 10-year high. However, the use of
levies and seizures (additional collection enforcement tools) both decreased during FY 2008.
Enforcement revenue collected also decreased by 5 percent (to $56.4 billion), and the total dollar
amount of uncollected liabilities increased to the 10-year high of $294 billion. The gap between
new delinquent account receipts and closures had narrowed by more than 1 percent by the end of
FY 2008.
The Collection function collected almost 12 percent less than in FY 2007, and the number of
taxpayers (981,317) and the amount owed ($43.2 billion) on accounts in the Queue were each at
a 10-year high. During FY 2008, the amount owed increased by 24 percent. While the Queue is
a source of work for Collection function employees, a significant number of accounts in the
Queue might never receive additional contact to resolve the delinquency.4 In addition, in
FYs 2005 through 2008, the IRS removed almost 3.1 million accounts with balance-due amounts
totaling approximately $11.9 billion from Collection function inventory. These accounts might
never receive additional contact to resolve the delinquency.
In September 2006, the IRS started assigning balance-due cases to private collection agencies.
Otherwise, these cases would not have been worked. Through FY 2008, the IRS had received a


3
 HIGH-RISK SERIES – An Update (GAO-09-271, dated January 2009).
4
 Before accounts get assigned to the Queue, the IRS has already sent notices to the taxpayer about the delinquency.
After the notice process, some cases go directly to the Queue while others are worked in the Automated Collection
System and may have received enforcement action such as a lien or levy.
                                                                                                                  2
                       Trends in Compliance Activities Through Fiscal Year 2008




total of $57.8 million after expected commissions on cases assigned to the collection agencies.
More than 98 percent of the total revenue collected by the agencies was received during
FYs 2007 and 2008. However, the IRS recently announced that the contracts with the private
collection agencies would not be renewed. While the IRS plans to hire additional Collection
function personnel during FY 2009, the full benefit from the new hires will not be immediately
realized because they will need to be trained. Even after being trained, it is unlikely the new
hires will be assigned the types of cases that were worked by the private collection agencies
because of higher priority cases in the inventory.
During FY 2008, the overall percentage of tax returns examined decreased by almost 3 percent,
while the number of field Examination function personnel at the end of the fiscal year did not
change when compared to FY 2007. However, the overall percentage of tax returns examined
was almost 12 percent higher than in FY 1999.
Overall, the number of individual tax returns examined increased during FY 2008.5
Correspondence examinations accounted for almost 82 percent of the examinations of
individuals.6 Because correspondence examinations are usually not as comprehensive as
face-to-face examinations, the impact on compliance might be limited. In addition, the dollar
yield per hour increased for individual income tax return examinations conducted by tax
compliance officers, but decreased for revenue agents.
In FY 2008, the number of corporate tax returns examined increased by approximately 1 percent,
after increasing 4 percent in FY 2007. However, the number of corporate returns examined has
decreased almost 23 percent since FY 1999. The total number examined decreased from
1 of 64 returns filed in FY 1999 to 1 of 74 returns filed in FY 2008. The number of tax returns
examined for small corporations (those with assets of less than $10 million) increased by almost
3 percent, while the number of returns examined for large corporations (those with assets of
$10 million and greater) decreased by approximately 2 percent. The dollar yield per hour
increased by almost 5 percent in FY 2008.
The IRS is implementing new procedures and processes to allow greater flexibility for dealing
with taxpayers who become delinquent due to current economic conditions. This could further
impact the results of compliance and enforcement activity.
Continued effort to improve compliance is important to reducing the tax gap and maintaining the
integrity of the voluntary tax compliance system. According to a tax gap strategy document, the
tax gap for Tax Year 2001 was $345 billion.7 The strategy document provides a broad base on


5
  This includes examinations conducted by employees located in field offices and campuses.
6
  We computed this percentage using the audit technique to identify whether there was actual face-to-face contact
during the examination. This number differs from publicized reports that rely solely on the organizational code.
7
  A Comprehensive Strategy for Reducing the Tax Gap (Department of the Treasury, Office of Tax Policy, dated
September 26, 2006).
                                                                                                                    3
                        Trends in Compliance Activities Through Fiscal Year 2008




which to build future efforts to address the tax gap, but depends on future budgets to provide
detailed strategy elements. In August 2007, the IRS released a report that builds on the strategy
by providing details about actions planned to reduce the tax gap.8 However, many of the actions
will require the assistance of Congress.

Recommendation
We made no recommendations in this report. However, key IRS management officials reviewed
the report prior to issuance and agreed with the facts and conclusions.
Please contact me at (202) 622-6510 if you have questions or Margaret E. Begg, Assistant
Inspector General for Audit (Compliance and Enforcement Operations), at (202) 622-8510.




8
    Reducing the Federal Tax Gap – A Report on Improving Voluntary Compliance (IRS, dated August 2, 2007).
                                                                                                             4
                          Trends in Compliance Activities Through Fiscal Year 2008




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 2
          Many Collection Function Compliance Activities and Results Declined ....Page 4
          Examination Function Compliance Activities Showed Mixed Results........Page 7

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 12
          Appendix II – Major Contributors to This Report ........................................Page 13
          Appendix III – Report Distribution List .......................................................Page 14
          Appendix IV – Glossary of Terms................................................................Page 15
          Appendix V – Detailed Charts of Statistical Information.............................Page 18
          Appendix VI – Prior Treasury Inspector General for Tax
          Administration Compliance Trends Reports ................................................Page 45
         Trends in Compliance Activities Through Fiscal Year 2008




                      Abbreviations

ACS             Automated Collection System
CFf             Collection Field function
FY              Fiscal Year
IRS             Internal Revenue Service
RRA 98          Internal Revenue Service Restructuring and Reform Act of 1998
SCCB            Service Center Collection Branch
TDA             Taxpayer Delinquent Account
TDI             Taxpayer Delinquency Investigation
TIGTA           Treasury Inspector General for Tax Administration
                   Trends in Compliance Activities Through Fiscal Year 2008




                                      Background

We conduct this review of nationwide compliance statistics for Collection and Examination
functions activities each year and it is included in our Fiscal Year (FY) 2009 Annual Audit Plan
under the major management challenge of Tax Compliance Initiatives. Our data analyses were
performed in the Treasury Inspector General for Tax Administration (TIGTA) Chicago, Illinois,
office during the period January through March 2009. Nationwide data from Internal Revenue
Service (IRS) management information system reports were used during our review. Due to
time and resource constraints, we did not audit IRS systems to validate the accuracy and
reliability of their information. Also, we did not assess internal controls because doing so was
not applicable within the context of our objective. Our analyses were limited to identifying
changes and trends in data prepared and reported by the IRS.
Detailed information on our objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II. A glossary of terms is included in
Appendix IV. Detailed charts and tables referred to in the body of this report are included in
Appendix V.
Most of the calculations throughout the report and Appendix V are affected by rounding. All
initial calculations were performed using the actual numbers rather than the rounded numbers
that appear in the report. Much of the data included in this report updates prior TIGTA reports
on compliance trends. Appendix VI presents a list of those reports.




                                                                                           Page 1
                       Trends in Compliance Activities Through Fiscal Year 2008




                                      Results of Review

Overall, during FY 2008, many compliance activities summarized in this report showed only
slight increases, or decreased. However, the levels of compliance activities are still higher than
what occurred during the years immediately following implementation of the IRS Restructuring
and Reform Act of 1998 (RRA 98).1
The post-RRA 98 increases occurred even though the combined enforcement staff level in the
Collection and Examination functions is not significantly higher than the 10-year low
experienced in FY 2003. The combined number of Collection and Examination function
enforcement personnel2 declined by 20 percent, from approximately 18,700 at the beginning of
FY 1999 to 14,900 at the end of FY 2008. After increasing by 8 percent during FY 2006,
staffing decreased by 4 percent during FY 2007 and decreased by less than 1 percent during
FY 2008. The Small Business/Self-Employed Division FY 2009 Hiring Plan includes hiring of
about 1,800 examiners (revenue agents and tax compliance officers), and 1,000 revenue officers.
Part of this hiring is to account for anticipated attrition.
For some time, the total number of tax returns filed and the total dollars the IRS received and
collected (gross collections) have increased. In the past 10 years, the total number of tax returns
filed grew by approximately 12 percent, from 163 million in Calendar Year 1998 to 183 million
in Calendar Year 2007. IRS gross collections grew from $1.90 trillion in FY 1999 to
$2.13 trillion in FY 2001, then fell a total of slightly more than 8 percent during FYs 2002 and
2003 to $1.95 trillion. These were the first decreases in total revenue since FY 1983. However,
since FY 2003, gross collections have increased by almost 41 percent and reached a new record
high of $2.75 trillion in FY 2008.3
After remaining relatively constant for FYs 1999 through 2002, the amount of enforcement
revenue collected increased by almost 74 percent from FY 2002 to FY 2007. Then, during
FY 2008, enforcement revenue collected decreased by 5 percent to $56.4 billion.4 This amount
(not adjusted for inflation) is still 71 percent higher than the FY 1999 amount.5




1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  Collection function and Examination function staff located in field offices, excluding management and overhead
staff.
3
  See Appendix V, Figure 1.
4
  See Appendix V, Figure 3.
5
  See Appendix V, Figure 2.
                                                                                                          Page 2
                      Trends in Compliance Activities Through Fiscal Year 2008




In the most recent update, the Government Accountability Office continues to include
enforcement of tax laws as 1 of the 30 high-risk areas in the Federal Government.6 The
Government Accountability Office states that improvements in compliance with tax laws will
require efforts by the IRS and Congress.
Continued effort to improve compliance is important to reducing the tax gap and maintaining the
integrity of the voluntary tax compliance system. In their report, the Government Accountability
Office noted that “many experts believe that the tax gap was underestimated in 2001 and has
grown larger since then.” According to a tax gap strategy document, the tax gap for Tax
Year 2001 was $345 billion, representing a compliance rate of about 84 percent.7 The purpose of
the strategy document was to provide a broad base on which to build future efforts to address the
tax gap. In August 2007, the IRS released a report that builds on the strategy by providing
details about actions planned to reduce the tax gap.8 The IRS is conducting annual compliance
research studies on individual taxpayers and plans to include studies on other segments of the
taxpaying population that should help update tax gap measurements and might lead to improved
selection criteria to identify tax returns for examination.
The IRS’ strategy for reducing the tax gap is largely dependent on funding for additional
compliance resources and legislative changes. Therefore, long-term success will in large part be
dependent on reducing risk factors, some of which are beyond the control of the IRS. One
proposal, to add information reporting requirements, is a proven method for increasing
compliance. While outside stakeholder groups have expressed concern about the increased
burden of additional information reporting requirements, 63 percent of taxpayers surveyed cited
information reporting as a factor for reporting and paying taxes honestly.9
The IRS is implementing new procedures and processes to allow greater flexibility for dealing
with taxpayers that become delinquent with their tax obligations due to current economic
conditions. This could further impact the results of compliance and enforcement activity. The
provisions apply to taxpayers that have demonstrated good faith efforts in the past to comply
with tax laws, but who recently encountered unusual financial hardships.
While the IRS has reversed many of the enforcement declines in both the Collection and
Examination functions that occurred in the years immediately following passage of the RRA 98,
many of the results for FY 2008 slipped from the FY 2007 levels. The IRS noted that there were
some anomalies that made FY 2007 a record-breaking year which did not recur during FY 2008,
and some resources were redirected from enforcement during FY 2008 to support execution of



6
  HIGH-RISK SERIES – An Update (GAO-09-271, dated January 2009).
7
  A Comprehensive Strategy for Reducing the Tax Gap (Department of the Treasury, Office of Tax Policy, dated
September 26, 2006).
8
  Reducing the Federal Tax Gap – A Report on Improving Voluntary Compliance (IRS, dated August 2, 2007).
9
  IRS Oversight Board 2008 Taxpayer Attitude Survey (dated February 2009).
                                                                                                        Page 3
                      Trends in Compliance Activities Through Fiscal Year 2008




the economic stimulus program. The following sections detail the compliance activities and
results for the Collection and Examination functions.

Many Collection Function Compliance Activities and Results Declined
After several years of improved results, many Collection function activities and results declined
during FY 2008. However, the results are still significantly higher than those during the years
immediately following the implementation of the RRA 98. The declines during FY 2008 might
be attributed, at least in part, to the declining economy and resources, and administering the
economic stimulus rebates. The IRS acknowledged that revenue collection reached record highs
during FY 2007, in part because a pair of large corporations had settled audits and paid
significant amounts, and that those anomalies did not repeat in FY 2008.
The number of Collection Field function (CFf) revenue officer personnel working delinquent
cases decreased 3 percent (to 3,613) during FY 2008.10 However, since the start of FY 1999,
revenue officer staffing has decreased by almost 28 percent. There are plans to hire about
1,000 revenue officers during FY 2009, of which almost 500 will be for anticipated attrition.

Some Collection function operations showed little change or mixed results for the
year
The following activities showed mixed results for the Collection function during FY 2008:
     •   The number of Taxpayer Delinquent Accounts (TDA) closed (excluding shelved
         accounts) showed a minimal increase, but the number closed by full payment increased
         by about 21 percent from FY 2007.11 The FY 2008 total represents a 10-year high.
     •   As shown in Figure 1, the use of
                                                    Figure 1: Use of Collection Enforcement Tools
         liens (a collection enforcement
         tool) has increased by                                      Liens          Levies         Seizures
                                                   FY 1999            167,867         504,403            161
         358 percent during the 10-year            FY 2000            287,517         219,778             74
         period. During FY 2008 alone,             FY 2001            426,166         674,080            234
                                                   FY 2002            482,509       1,283,742            296
         the number of liens issued by             FY 2003            544,316       1,680,844            399
         the CFf and Automated                     FY 2004            534,392       2,029,613            440
                                                   FY 2005            522,887       2,743,577            512
         Collection System (ACS)                   FY 2006            629,813       3,742,276            590
         increased by 6 percent and                FY 2007            683,659       3,757,190            676
         22 percent, respectively, to a            FY 2008            768,168       2,631,038            610
                                                Source: Small Business/Self-Employed Division Collection Planning
         10-year high.12                        and Analysis, Collection National Reports, and IRS Data Book.




10
   See Appendix V, Figure 5.
11
   See Appendix V, Figures 17 and 18.
12
   See Appendix V, Figure 19.
                                                                                                           Page 4
                      Trends in Compliance Activities Through Fiscal Year 2008




         However, as also shown in Figure 1, the use of levies and seizures (additional collection
         enforcement tools) both decreased during FY 2008, but increased 422 percent and
         279 percent, respectively, since FY 1999. The total number of levies decreased by
         30 percent from FY 2007 due to a substantial decrease (35 percent) in the number of
         levies issued by the ACS during FY 2008. The IRS advised they made a decision to
         reduce the number of levies issued by the ACS so employees would be available to
         answer taxpayer calls about the economic stimulus. The number of levies issued by the
         CFf during the year increased by 21 percent. Finally, the number of seizures decreased
         by 10 percent during FY 2008.13

Many Collection function operations showed declines for the year
The following indicators declined for Collection function compliance activity during FY 2008.
     •   Dollars collected on TDAs by ACS and CFf employees totaled approximately
         $5.6 billion, a decrease of almost 12 percent from FY 2007.14 However, this year’s
         amount is almost 55 percent greater than the 10-year low that occurred in FY 2000.
     •   The average amount collected per CFf staff year on TDAs decreased by approximately
         8 percent from FY 2007. The amount increased by 92 percent (to $520,446) from a low
         of $271,110 in FY 1999.15 However, the average amount collected is about 10 percent
         less than that in FY 2005, the 10-year high.
     •   More TDAs were received than closed, but the gap between TDA receipts and TDA
         closures had narrowed by approximately 1 percent (to 1,886,789 accounts) as of the end
         of the fiscal year.16 This is the second largest year-end gap in the 10-year period.
         FY 2007 had the largest gap.
     •   The number of taxpayers with Taxpayer Delinquency Investigations (TDI) closed by the
         ACS and the CFf because delinquent tax returns were received by the IRS decreased by
         almost 3 percent from FY 2007. The ACS had a slight decrease in closures, but the CFf
         closures decreased by almost 7 percent during the year. Overall, there has been a
         69 percent increase since the 10-year low that occurred in FY 2002.
     •   The amount of gross accounts receivable increased by almost 2 percent (to $294 billion)
         after increasing almost 7 percent during FY 2007.17 The FY 2008 amount represents the
         10-year high. The increase in gross accounts receivable occurred even though there was
         an increase in gross collections.

13
   See Appendix V, Figures 20 and 21.
14
   See Appendix V, Figure 9.
15
   See Appendix V, Figure 8.
16
   See Appendix V, Figure 15.
17
   See Appendix V, Figure 3.
                                                                                             Page 5
                       Trends in Compliance Activities Through Fiscal Year 2008




An inventory of unassigned collection cases is maintained in the Queue. The number of
taxpayers with TDAs in the Queue and the amount owed on these accounts increased to 10-year
highs during FY 2008. The number of taxpayer accounts increased by approximately 13 percent
to 981,317. At the same time, the amount owed increased by 24 percent to $43.2 billion. The
number of taxpayers with TDIs decreased by 15 percent to 850,850.18 Although many of the
cases in the Queue might be assigned to be worked, a significant number might never receive
additional contact to resolve the delinquency.19
As noted previously, the Queue inventory includes a substantial number of taxpayer accounts.
However, those Queue inventory figures do not include the millions of TDA and TDI tax periods
shelved or surveyed (removed) from Collection function inventory during the last few years. In
FYs 2005 through 2008, the IRS removed almost 3.1 million TDAs20 (with balance-due amounts
totaling $11.9 billion) and 6.7 million TDI tax periods from Collection function inventory.
These cases were removed because they were potentially less productive than other available
inventory and might never receive additional contact to resolve the delinquency.
The Collection function is unable to work all of the existing accounts in the Queue with current
staffing, and the number of TDA receipts is outpacing closures. If changes do not occur, a
significant number of cases will continue to not receive additional contact to resolve the
delinquency. This reinforces the need for additional resources to work the cases. As previously
noted, the number of revenue officers decreased during FY 2008, but there are plans to hire
revenue officers during FY 2009.
In September 2006, the IRS started assigning balance-due cases to private collection agencies.
Otherwise, these cases might not have been worked. Through FY 2008, the IRS had received a
total of $57.8 million after expected commissions on cases assigned to the collection agencies.
More than 98 percent of the total revenue collected by the agencies was received in FYs 2007
and 2008. However, the IRS recently announced that the contracts with the private collection
agencies would not be renewed. There had been substantial opposition to the use of private
collection agencies from some members of Congress, the Taxpayer Advocate Service, and the
National Treasury Employees Union. While the IRS plans to hire additional collection personnel
during FY 2009, it will take some time for those employees to be fully trained and, even after
they are trained, it is unlikely that they will be assigned the types of cases that were worked by
the private collection agencies because of higher priority cases in the inventory.




18
   See Appendix V, Figures 10 and 16.
19
   Before accounts get assigned to the Queue, the IRS has already sent notices to the taxpayer about the delinquency.
After the notice process, some cases go directly to the Queue while others are worked in the ACS and may have
received enforcement action such as a lien or levy.
20
   See Appendix V, Figure 11.
                                                                                                             Page 6
                       Trends in Compliance Activities Through Fiscal Year 2008




Examination Function Compliance Activities Showed Mixed Results
Overall, the total number of field Examination function personnel, as of the end of the fiscal
year, who conduct examinations of tax returns did not change in FY 2008 compared to FY 2007.
The number of revenue agents decreased to 10,080, while the number of tax compliance officers
increased to 1,114.21 However, the number of examiners in field offices22 has decreased by
17 percent since the start of FY 1999.
To help address the decrease in the number of available examiners, the Examination function
plans to hire about 1,800 revenue agents and tax compliance officers during FY 2009,
approximately 800 of which will be for anticipated attrition. However, the IRS will not
immediately realize an increase in productivity from the new hires because of the time required
to train them and because experienced examiners will need to be used as training coaches and
classroom instructors, which reduces their availability to conduct examinations. The
Examination function also continues to study methods that will result in identifying for
examination those tax returns that contain greater potential for noncompliance.
With staffing levels basically unchanged compared to FY 2007, Examination function
compliance activities showed some slight increases in a few areas but decreases in other areas
during FY 2008. Compared to FY 2007, the percentage of tax returns examined decreased or
showed little change for most types of returns during FY 2008. At the same time, the dollar
yield per hour increased for individual tax return examinations performed by tax compliance
officers and for corporate and other types of tax return examinations performed by revenue
agents, but decreased for examinations of individual tax returns performed by revenue agents.23

Overall, the number of tax returns examined decreased and most examinations
were conducted via correspondence
When analyzing examination coverage rates, one should recognize differences in the types of
contacts that are counted in Examination function statistics. Examinations range from issuance
of an IRS notice asking for clarification of a single tax return item that appears to be incorrect
(correspondence examination) to a face-to-face interview and review of the taxpayer’s records.
Face-to-face examinations are generally more comprehensive and time consuming for the IRS
and the taxpayers, and they typically result in higher dollar adjustments to the tax amounts.
Thus, caution should be used when combining statistics from the various Examination function
programs into overall examination rates. During FY 2008, slightly more than 72 percent of all
examinations were conducted via correspondence.


21
   See Appendix V, Figure 4.
22
   Examiners in field offices include revenue agents, tax compliance officers, tax examiners, and revenue officer
examiners.
23
   See Appendix V, Figures 23 through 26.
                                                                                                             Page 7
                               Trends in Compliance Activities Through Fiscal Year 2008




In addition, the IRS uses several computer-matching and automated error-checking routines to
check the accuracy of tax returns.24 These routines often identify adjustments to tax liabilities.
However, these adjustments are not included in the traditional “audit rates” and are not generally
reported separately as enforcement efforts.
The overall percentage of tax returns examined (including face-to-face and correspondence
examinations) decreased by almost 3 percent25 from FY 2007, but still has nearly doubled since
FY 2000. In addition, the overall percentage of tax returns examined was almost 12 percent
higher than in FY 1999.

                 Figure 2: Percentage Change in the Number
                                                                                          Figure 2 compares the change in field
                    of Field Examiners and Examinations                                   Examination function staffing to the
                                                                                          change in the number of examinations
                 Total Field Examiners                Total Field Examinations
     10%
                                                                                          by field employees, for all types of
                                                                                          tax returns, from the beginning of
      0%
                                                                                          FY 1999 through FY 2008. The chart
     -10%                                                                                 line for the number of field examiners
     -20%                                                                                 does not start at zero because the
     -30%
                                                                                          number of examiners conducting
                                                                                          examinations during FY 1999
     -40%
                                                                                          decreased by almost 6 percent during
     -50%                                                                                 the year. Examination function
     -60%                                                                                 staffing was unchanged at the end of
        FY 1999 FY 2000 FY 2001 FY 2002 FY 2003 FY 2004 FY 2005 FY 2006 FY 2007 FY 2008
                                                                                          FY 2008 compared to FY 2007. The
     Source: IRS Data Book and Examination Table 37.
                                                                                          IRS has plans to hire additional
                                                                                          examiners in FY 2009.
A continued effort to increase examination coverage is important to maintaining the
effectiveness of the voluntary tax compliance system. The IRS Oversight Board’s study of
taxpayer attitudes showed that a smaller percentage (9 percent) of taxpayers believed that it was
acceptable to cheat on their income taxes in 2008 than did in 2007 (13 percent). In addition, fear
of examination is a major factor influencing taxpayers to report taxes honestly. In 2007,
54 percent of taxpayers surveyed cited fear of examination as a factor that influenced their
voluntary compliance, and that increased to 59 percent in 2008. However, this is down from
62 percent in 2005.




24
  See Appendix V, Figures 44 and 45.
25
  The IRS has traditionally calculated the percentage of examination coverage by dividing the number of returns
examined in the current fiscal year by the number of returns filed in the preceding calendar year.
                                                                                                                         Page 8
                       Trends in Compliance Activities Through Fiscal Year 2008




The following paragraphs summarize examination coverage for various types of tax returns:
     •   Individual Income Tax Examinations – FY 2000 represented the 10-year low, with only
         617,765 (1 of every 202) individual income tax returns examined. Since then, the
         number of tax returns examined has continuously increased and 1,391,581 (1 of every 99)
         were examined in FY 2008.26 While the number examined increased in FY 2008, the
         examination rate decreased almost 2 percent from FY 2007 because of the increase in the
         number of returns filed.
         During FY 2008, almost 82 percent of the examinations of individuals were done by
         correspondence.27 Only 1 of every 545 individual income tax returns filed received a
         face-to-face examination (1 percent less coverage than in FY 2007), while 1 of every 121
         received a correspondence examination (2 percent less coverage than in FY 2007).
     •   Corporate Income Tax Examinations – The number of corporate income tax returns
         examined (excluding returns for foreign corporations and S Corporations) increased by
         approximately 1 percent in FY 2008, after increasing by approximately 4 percent in
         FY 2007. However, the number of examinations has decreased by almost 23 percent
         since FY 1999. From FY 1999 through FY 2008, the total number of corporate tax
         returns examined decreased from 38,805 (1 of every 64 returns filed) to 29,986 (1 of
         every 74 returns filed).28 The number of corporate income tax returns filed decreased by
         11 percent during the 10-year period. Because the number of returns filed also decreased,
         the impact on the examination coverage rate was not as large.
         The number of corporate tax returns examined with assets of less than $10 million
         increased by almost 3 percent in FY 2008. During the same period, the number of
         corporate tax returns examined with assets of $10 million and greater decreased by
         approximately 2 percent, but examinations of those with assets of $250 million and
         greater increased by almost 7 percent. However, a much higher percentage of the large
         corporations than those with assets of less than $10 million is examined.
     •   S Corporation Return Examinations – After declining by 70 percent from FYs 1999
         to 2004, the number of S Corporation tax returns examined increased by almost
         176 percent from FYs 2004 to 2007, then decreased by almost 6 percent in FY 2008.
         Since FY 2004, the number of S Corporation returns filed has increased by approximately
         23 percent. During that period, the number of tax returns examined increased from 1 of
         every 526 returns filed to 1 of every 250 returns filed.29 The increase in examination

26
   This includes examinations conducted by employees located in field offices and campuses. See Appendix V,
Figure 29.
27
   We computed this percentage using the audit technique to identify whether there was actual face-to-face contact
during the examination. This number differs from publicized reports that rely solely on the organizational code.
28
   See Appendix V, Figures 34, 35, and 46 for coverage by size of corporation.
29
   See Appendix V, Figures 37 and 46.
                                                                                                            Page 9
                        Trends in Compliance Activities Through Fiscal Year 2008




           coverage through FY 2007 can be partly attributed to the IRS research project studying
           the compliance of S Corporation entities. However, as we noted in last year’s report,
           almost all of these examinations are completed and the predicted decrease in the number
           of examinations occurred. The IRS is analyzing the results of this project and might
           identify potential changes in the examination selection criteria for this type of tax return.
       •   Partnership Return Examinations – The number of partnership returns examined
           increased by approximately 8 percent in FY 2008 and has increased by approximately
           160 percent since the 10-year low experienced in FY 2001. The number of returns filed
           increased by approximately 52 percent between FYs 2001 and 2008.30 About 1 of every
           408 returns filed was examined in FY 2001. This increased to about 1 of every 238 for
           this year.
       •   Other Tax Type Examinations (Fiduciary, Employment, Excise, Estate, and Gift Taxes) –
           The overall number of examinations in these 5 classes decreased by almost 17 percent
           during FY 2008, but was up 113 percent from the 10-year low experienced in FY 2003.
           The major portion of this year’s decrease was due to a decrease in the number of
           examinations of excise tax returns, which had spiked in FY 2007. The number of
           fiduciary and employment returns examined increased, but the number of estate and gift
           tax returns examined continued to decrease.31

Examination function dollar yield per hour has mixed results
Figure 3 shows the dollar yield per hour
for FYs 1999 through 2008 for revenue              Figure 3: Examination Function Dollar Yield per Hour

agents and tax compliance officers.                  RA - Individual       TCO - Individual       RA - Corporate
The dollar yield per hour for                         $3,200


examinations of individual tax returns                $2,800


decreased by almost 22 percent for                    $2,400


revenue agents during FY 2008, but                    $2,000


increased by almost 11 percent for tax                $1,600


compliance officers. The yield                        $1,200


increased by almost 5 percent for                      $800


revenue agent examinations of                          $400
                                                         F Y 1999   FY 2000   FY 2001   FY 2002   FY 2003   F Y 2004   FY 2005   FY 2006   FY 2007   FY 2008
corporate tax returns during FY 2008.        Source: TIGTA analysis of Examination Table 37. RA = revenue agent.
Since FY 2005, the yield for revenue         TCO = tax compliance officer.
agent examinations of individual and
corporate tax returns has fluctuated in opposite directions from each other.



30
     See Appendix V, Figures 38 and 46.
31
     See Appendix V, Figures 39 through 43 and 46.
                                                                                                                                               Page 10
                        Trends in Compliance Activities Through Fiscal Year 2008




The Examination function dollar yield per hour for individual income tax return examinations
was lower in FY 2004 than in FY 1999 or FY 2008.32 Since FY 2004, the yield increased for
both revenue agents and tax compliance officers. The low yield in FY 2004 correlates with the
number of hours used to examine each tax return, which reached the 10-year high that year.
Since FY 2004, the number of hours decreased for both revenue agents and tax compliance
officers.
The dollar yield per hour for corporate tax return examinations increased by 239 percent from
FYs 2003 to 2006 and then decreased to below the FY 2005 level for FYs 2007 and 2008.
During FYs 2003 to 2006, the average dollar amounts assessed per return fluctuated significantly
and the hours spent examining each tax return also fluctuated.33 The net effect was an increase in
the dollar yield per hour for FYs 2003 through 2006, a decrease in FY 2007, and almost a
5 percent increase in FY 2008.

Conclusion
The IRS has reversed numerous downward trends in compliance activities that occurred in both
the Collection and Examination functions in the years immediately following passage of the
RRA 98. However, the IRS should continue its efforts to improve the business processes and
workload selection methods because they appear to be having a positive impact on compliance
efforts. In addition, the hiring and training of new enforcement personnel should continue to be
a top priority because many experienced employees in those positions are already eligible for
retirement or will become eligible in the next few years.




32
     See Appendix V, Figures 23 and 26.
33
     See Appendix V, Figure 24.




                                                                                          Page 11
                         Trends in Compliance Activities Through Fiscal Year 2008




                                                                                      Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to provide statistical information and trend analyses of
the data for the Collection and Examination functions activities. We conduct this review each
year and it is included as part of our FY 2009 Annual Audit Plan under the major management
challenge of Tax Compliance Initiatives.
To accomplish our objective, we analyzed information obtained from IRS management
information system reports to determine trends and changes in the major areas of compliance.
Due to time and resource constraints, we did not audit IRS systems to validate the accuracy and
reliability of their information. Also, we did not assess internal controls because doing so was
not applicable within the context of our objective. The major issues we focused on included:
      •    Enforcement revenue1 and gross accounts receivable.
      •    Collection and Examination function staffing.
      •    Collection and Examination function direct time.
      •    Collection function delinquent account inventories and unfiled return investigations.
      •    Collection function enforcement actions (liens, levies, and seizures).
      •    Examination function coverage of individual and business tax returns compared to the
           number of returns filed in each category.
      •    Examination function productivity results for individual and business tax returns.
      •    Other activities resulting in improvements in the accuracy of filed tax returns and the
           filing of delinquent returns.




1
    See Appendix IV for a glossary of terms.
                                                                                             Page 12
                  Trends in Compliance Activities Through Fiscal Year 2008




                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl L. Aley, Director
Amy L. Coleman, Audit Manager
Joseph P. Snyder, Lead Auditor
Timothy A. Chriest, Senior Auditor
Jeffrey K. Jones, Senior Auditor




                                                                                      Page 13
                 Trends in Compliance Activities Through Fiscal Year 2008




                                                                  Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Deputy Commissioner, Large and Mid-Size Business Division SE:LM
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Office of Research, Analysis, and Statistics RAS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Large and Mid-Size Business Division SE:LM
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                        Page 14
                    Trends in Compliance Activities Through Fiscal Year 2008




                                                                                   Appendix IV

                                Glossary of Terms

Automated Collection System – A telephone contact system through which telephone assistors
collect unpaid taxes and secure tax returns from delinquent taxpayers who have not complied
with previous notices.
Automated Substitute for Return System – A system designed to assess taxes on wage earners
who fail to file tax returns. It analyzes information submitted to the IRS and historical tax return
information.
Balance Sheet – A statement of the financial assets and liabilities of a business at a given date
filed with a corporate income tax return. It is used by the IRS to group businesses by asset size.
Campus – The data processing arm of the IRS. The campuses process paper and electronic
submissions, correct errors, and forward data to the Computing Centers for analysis and posting
to taxpayer accounts.
Collection Field function – The unit in the field offices consisting of revenue officers who
handle personal contacts with taxpayers to collect delinquent accounts or secure unfiled returns.
Computing Centers – IRS facilities that support tax processing and information management
through a data processing and telecommunications infrastructure.
Corporate Income Tax Return – U.S. Corporation Income Tax Return (Form 1120). It is used
by corporations to report the corporate income tax.
Dollar Yield per Hour – The amount of tax adjustments on tax returns divided by the number of
hours spent examining those returns.
Employment Tax Returns – Various Form 940 return series (primarily Employer’s Annual
Federal Unemployment (FUTA) Tax Return (Form 940) and Employer’s QUARTERLY Federal
Tax Return (Form 941)) filed by businesses to report things such as employer’s Federal
unemployment taxes and Federal taxes withheld.
Enforcement Revenue – Any tax, penalty, or interest received from a taxpayer as a result of an
IRS enforcement action (usually an examination or a collection action).
Estate Tax Return – United States Estate (and Generation-Skipping Transfer) Tax Return
(Form 706). It is filed for estates of certain deceased persons.
Examination (Face-to-Face) – A field examination of an individual, a partnership, or a
corporation that occurs either at the taxpayer’s place of business or through an interview(s) at an
IRS office.
                                                                                            Page 15
                    Trends in Compliance Activities Through Fiscal Year 2008




Excise Tax Return – Quarterly Federal Excise Tax Return (Form 720). It is used to report and
pay certain taxes, such as those on transportation and fuel.
Fiduciary Income Tax Returns – Income tax returns filed for estates and trusts.
Gift Tax Return – United States Gift (and Generation-Skipping Transfer) Tax Return
(Form 709). It is used to report transfers subject to the Federal gift taxes and to calculate the
taxes due on those transfers.
Gross Accounts Receivable – Includes all unpaid tax, with accrued penalties and interest, on
taxpayers’ delinquent accounts.
Individual Income Tax Returns – U.S. Individual Income Tax Returns (Form 1040 series).
They are annual income tax returns filed by citizens or residents of the United States.
IRS Data Book – An IRS annual report providing information on returns filed and taxes
collected, enforcement, taxpayer assistance, the IRS budget and workforce, and other selected
activities for the fiscal year.
IRS Oversight Board – An independent body charged with overseeing the IRS in its
administration, management, conduct, direction, and supervision of the execution and application
of the internal revenue laws.
Levy – A method used by the IRS to collect outstanding taxes from sources such as bank
accounts and wages.
Lien – An encumbrance on property or rights to property as security for outstanding taxes.
Math Error Program – A process by which the IRS contacts taxpayers through the mail or by
telephone when it identifies mathematical errors or mismatches of taxpayer information that
would result in tax changes.
National Research Project – Research conducted by the IRS to determine filing, payment, and
reporting compliance by taxpayers for different types of taxes.
Overhead Staff – Support staff performing indirect duties within the function such as
automation support, technical support, and quality review.
Partnership Return – U.S. Return of Partnership Income (Form 1065). It is used to report the
income and expenses of domestic partnerships and the share distributed to each partner.
Queue – An automated holding file for unassigned inventory of delinquent cases for which the
Collection function does not have enough resources to immediately assign for contact.
Revenue Agent – An employee in the Examination function who conducts face-to-face
examinations of more complex tax returns such as businesses, partnerships, corporations, and
specialty taxes (e.g., excise tax returns).


                                                                                             Page 16
                    Trends in Compliance Activities Through Fiscal Year 2008




Revenue Officer – An employee in the CFf who attempts to contact taxpayers and resolve
collection matters that have not been resolved through notices sent by the IRS campuses
(formerly known as service centers) or the ACS.
Revenue Officer Examiner – A revenue officer who has been trained to conduct examinations
of employment tax returns.
S Corporation Tax Return – U.S. Income Tax Return for an S Corporation (Form 1120S). It is
filed by qualifying small business corporations and includes amounts distributed to shareholders.
Seizure – The taking of a taxpayer’s property to satisfy his or her outstanding tax liability.
Service Center Collection Branch – An IRS function that mails the balance-due and
return-delinquency notices to taxpayers and analyzes and responds to taxpayer correspondence.
Shelved or Surveyed Cases – Delinquent unpaid accounts or investigations of unfiled tax
returns that have been taken out of the Collection function inventory because they are of lower
priority than other available inventory.
Substitute for Return/6020(b) Return – Tax returns prepared by the IRS, based on Internal
Revenue Code provisions, when taxpayers appear to be liable, but have not voluntarily filed the
returns.
Tax Compliance Officer/Tax Auditor – An employee in the Examination function that
primarily conducts examinations of individual taxpayers through interviews at IRS field offices.
The position title was changed in 2002 from tax auditor to tax compliance officer.
Tax Examiner – In the context of this report, an employee located in a field office who conducts
examinations through correspondence. However, the tax examiner position is also used for
many other types of positions located in various IRS offices.
Taxpayer Delinquent Account – A balance-due account of a taxpayer. A separate TDA exists
for each delinquent tax period.
Taxpayer Delinquency Investigation – An unfiled tax return(s) for a taxpayer. One TDI exists
for all delinquent tax periods for a taxpayer.
Tax Gap – The difference between what taxpayers should have paid and what they timely paid.
Tax Period – Refers to each tax return filed by the taxpayer for a specific period (year or
quarter) during a calendar year for each type of tax.
Underreporter Program – A process that matches items reported on an individual’s income tax
return to information supplied to the IRS from outside sources (such as employers, banks, and
credit unions) to determine if the taxpayer’s tax return reflected the correct amounts and if the
tax amount is correct.


                                                                                              Page 17
                      Trends in Compliance Activities Through Fiscal Year 2008




                                                                                                     Appendix V

           Detailed Charts of Statistical Information

Figure 1 – Gross Collections by Type of Tax Since FY 1999...............................Page 21
Figure 2 – Changes in Enforcement Revenue and Gross Accounts
           Receivable – Percentage Change From FY 1999 .................................Page 21
Figure 3 – Amounts of Enforcement Revenue Collected Compared to
           Growth in Gross Accounts Receivable.................................................Page 22
Figure 4 – Examination Function Staffing at the End of Each Fiscal Year...........Page 22
Figure 5 – CFf Staffing at the End of Each Fiscal Year ........................................Page 23
Figure 6 – Staff Years Detailed to Assist Walk-In Taxpayers...............................Page 23
Figure 7 – Changes in Direct Time Percentages....................................................Page 24
Figure 8 – Average Dollars Collected per Staff Year on TDAs by the CFf..........Page 24
Figure 9 – Total Dollars Collected on TDAs by the CFf and ACS .......................Page 25
Figure 10 – TDAs and TDIs in the Queue.............................................................Page 25
Figure 11 – TDA and TDI Tax Periods Shelved or Surveyed Each Year .............Page 26
Figure 12 – Gap Between TDI Tax Period Receipts and Closures........................Page 26
Figure 13 – Number of TDI Tax Periods Closed, Excluding Shelved Accounts ..Page 27
Figure 14 – Number of TDI Tax Periods Closed With Receipt of a
            Delinquent Tax Return .......................................................................Page 27
Figure 15 – Gap Between TDA Receipts and Closures.........................................Page 28
Figure 16 – Number of Taxpayers and Amount Owed in the Queue ....................Page 28
Figure 17 – Number of TDAs Closed, Excluding Shelved Accounts ...................Page 29
Figure 18 – Number of TDAs Closed by Full Payment ........................................Page 29
Figure 19 – Liens Filed by the CFf and ACS ........................................................Page 30
Figure 20 – Levies Issued by the CFf and ACS.....................................................Page 30
Figure 21 – Number of Seizures Made Each Fiscal Year......................................Page 31


                                                                                                               Page 18
                       Trends in Compliance Activities Through Fiscal Year 2008




Figure 22 – Examination Coverage of All Tax Returns – Percentage Change
            From FY 1999 ....................................................................................Page 31
Figure 23 – Revenue Agent Results on U.S. Individual Income Tax
            Returns (Form 1040), Excluding Training Returns – Percentage
            Change From FY 1999 .......................................................................Page 32
Figure 24 – Revenue Agent Results on Corporate Income Tax Returns,
            Excluding Training Returns – Percentage Change From FY 1999....Page 32
Figure 25 – Revenue Agent Results on Other Types of Tax Returns,
            Excluding Training Returns – Percentage Change From FY 1999....Page 33
Figure 26 – Tax Compliance Officer Results on Forms 1040, Excluding
            Training Returns – Percentage Change From FY 1999 .....................Page 33
Figure 27 – Number of Forms 1040 Examined Face-to-Face or Through
            Correspondence ..................................................................................Page 34
Figure 28 – Percentage of Forms 1040 Examined Face-to-Face or
            Through Correspondence ...................................................................Page 34
Figure 29 – Examination Coverage of Forms 1040...............................................Page 35
Figure 30 – Examination Coverage of Forms 1040 – Percentage Change
            From FY 1999 ....................................................................................Page 35
Figure 31 – Examination Coverage of Corporate Income Tax Returns –
            Percentage Change From FY 1999 ....................................................Page 36
Figure 32 – Percentage of Corporate Income Tax Returns Examined –
            Corporations With Assets of Less Than $10 Million.........................Page 36
Figure 33 – Percentage of Corporate Income Tax Returns Examined –
            Corporations With Assets of $10 Million and Greater.......................Page 37
Figure 34 – Examination Coverage of Corporations With Assets of
            Less Than $10 Million .......................................................................Page 37
Figure 35 – Examination Coverage of Corporations With Assets of
            $10 Million and Greater .....................................................................Page 38
Figure 36 – Examination Coverage of Forms 1120S – Percentage Change
            From FY 1999 ....................................................................................Page 38
Figure 37 – Examination Coverage of Forms 1120S ............................................Page 39
Figure 38 – Examination Coverage of Partnership Income Tax Returns ..............Page 39


                                                                                                                   Page 19
                      Trends in Compliance Activities Through Fiscal Year 2008




Figure 39 – Examination Coverage of Fiduciary Income Tax Returns .................Page 40
Figure 40 – Examination Coverage of Employment Tax Returns.........................Page 40
Figure 41 – Examination Coverage of Excise Tax Returns...................................Page 41
Figure 42 – Examination Coverage of Estate Tax Returns....................................Page 41
Figure 43 – Examination Coverage of Gift Tax Returns.......................................Page 42
Figure 44 – Other Compliance Contacts on Forms 1040 ......................................Page 42
Figure 45 – Other Compliance Contacts – Percentage of Form 1040 Coverage...Page 43
Figure 46 – Numbers and Percentages of Individual and Business
            Tax Returns Examined .......................................................................Page 44




                                                                                                              Page 20
                                   Trends in Compliance Activities Through Fiscal Year 2008




Figure 1. Gross Collections by Type of Tax Since FY 1999. Overall, gross tax collections
rose 2 percent during FY 2008, the highest level of the 10-year analysis. However, during
FY 2008, corporate and excise tax collection decreased by 10 percent and 3 percent,
respectively.
              $3.0

                                                                                                                      Excise Tax

              $2.5


                                                                                                                      Estate & Gift
              $2.0                                                                                                    Tax
  Trillions




              $1.5
                                                                                                                      Employment
                                                                                                                      Tax


              $1.0

                                                                                                                      Corporate
                                                                                                                      Income Tax
              $0.5


                                                                                                                      Individual
              $0.0                                                                                                    Income Tax
                      FY          FY      FY       FY        FY      FY           FY       FY       FY        FY
                     1999        2000    2001     2002      2003    2004         2005     2006     2007      2008

  Source: TIGTA analysis of IRS Data Book.

Figure 2. Changes in Enforcement Revenue and Gross Accounts Receivable – Percentage
Change From FY 1999. Enforcement revenue had been increasing sharply since FY 2002, until
decreasing in FY 2008. However, in FY 2008 it was 71 percent more than in FY 1999. After
decreasing sharply during FY 2005, gross accounts receivable was 14 percent higher in FY 2008
than in FY 1999.
                                 Enforcement Revenue                                    Gross Accounts Receivable
      90%
                                                                                                               80%
      80%

      70%
                                                                                                                           71%
      60%
                                                                                                    48%
      50%
                                                                                        44%
      40%
                                                                           31%
      30%

      20%                                                     14%
                                                                            11%                                 13%        14%
                                          7%       9%
      10%
                            3%                                 8%                                      5%
              0%
                              3%         3%        3%                                     0%
  -10%
     FY 1999                FY 2000     FY 2001   FY 2002    FY 2003   FY 2004          FY 2005    FY 2006    FY 2007      FY 2008

 Source: Office of Research, Analysis, and Statistics and Chief Financial Officer information.

                                                                                                                            Page 21
                                                         Trends in Compliance Activities Through Fiscal Year 2008




Figure 3. Amounts of Enforcement Revenue Collected Compared to Growth in Gross
Accounts Receivable. After dropping off significantly during FY 2005, gross accounts
receivable has increased by almost $36.1 billion since then. During the same time period,
enforcement revenue increased by $9.1 billion even though it decreased $2.8 billion (5 percent)
in FY 2008.
                                                         Enforcement Revenue                                         Gross Accounts Receivable
                                    $100                                                                                                                    $300
                                                                                                                                                   $294




                                                                                                                                                                    Gross Accounts Receivable (Billions)
                                    $90                                                                                                                     $290
   Enforcement Revenue (Billions)




                                                                                                          $285
                                                                                                                                            $290
                                    $80                                                                                                                     $280
                                                              $276             $280
                                                                                          $278
                                    $70                                                                                                                     $270
                                                  $264                                                                        $271
                                    $60                                                                                                                     $260
                                                                                                                     $258
                                           $257                                                                                           $59.2
                                                                                                                 $47.3                             $56.4
                                    $50                                                                                                                     $250
                                                                                                   $43.1
                                                                                                                               $48.7
                                    $40                                                 $37.6                                                               $240
                                           $32.9    $33.8        $33.8        $34.1
                                    $30                                                                                                                     $230

                                    $20                                                                                                                   $220
                                     FY 1999        FY 2000    FY 2001       FY 2002    FY 2003    FY 2004       FY 2005     FY 2006    FY 2007      FY 2008

 Source: Office of Research, Analysis, and Statistics and Chief Financial Officer information.

Figure 4. Examination Function Staffing at the End of Each Fiscal Year. These numbers
represent the Examination function staff conducting examinations of tax returns (excludes
management and overhead staff). During FY 2008, revenue agent staffing decreased slightly
while tax compliance officer staffing increased slightly. The combined total is almost 17 percent
lower than it was at the beginning of FY 1999.
                                                         Revenue Agent                                                  Tax Compliance Officer

   12,000

                                           11,591
                                                     11,014
   10,000                                                        10,381                                                            10,513
                                                                             9,994                                                             10,121      10,080
                                                                                        9,776                9,787       9,682
                                                                                                  9,244
                 8,000


                 6,000


                 4,000

                                             1,850       1,650
                 2,000                                               1,393      1,190     1,148     1,041         987        981       1,145       1,060      1,114


                                      0
                                           FY 1998 FY 1999 FY 2000 FY 2001 FY 2002 FY 2003 FY 2004 FY 2005 FY 2006 FY 2007 FY 2008

  Source: TIGTA analysis of Examination Table 37.

                                                                                                                                                              Page 22
                         Trends in Compliance Activities Through Fiscal Year 2008




Figure 5. CFf Staffing at the End of Each Fiscal Year. The number of revenue officers
working assigned delinquent cases (excludes management and overhead staff) decreased slightly
during the year and was almost 28 percent lower than at the start of FY 1999.
   6,000


   5,000


   4,000     4,354

                                      3,792                                        3,779                      3,876
                         3,601                                                                 3,680                    3,724     3,613
                                                       3,495         3,499
   3,000


   2,000


   1,000


      0
            FY 1999 FY 2000 FY 2001 FY 2002 FY 2003 FY 2004 FY 2005 FY 2006 FY 2007 FY 2008

  Source: Collection Report 5000-23.

Figure 6. Staff Years Detailed to Assist Walk-In Taxpayers. The number of staff years
detailed to assist walk-in taxpayers decreased again in FY 2008 and remained lower than the
number detailed during FY 1999.
                               Collection                                                              Examination

   700
                             646

   600


   500           468


   400
                       323
           288
   300


   200
                                            167           174
                                   104
   100
                                                  43                                 30
                                                                15       60    3                10             9
                                                                                           1              1            1   4     1   3
      0
           FY 1999     FY 2000     FY 2001        FY 2002       FY 2003       FY 2004      FY 2005      FY 2006       FY 2007   FY 2008

  Source: TIGTA analysis of Collection Report 5000-23 and Examination Table 37.

                                                                                                                                         Page 23
                         Trends in Compliance Activities Through Fiscal Year 2008




Figure 7. Changes in Direct Time Percentages. The Collection and Examination functions
both increased slightly the percentage of overall time charged to their direct tax-related
responsibilities (collecting taxes, securing tax returns not timely filed, and examining tax returns)
during FY 2008. The Collection and Examination functions changed the types of time they
capture as direct and indirect in recent years, including capturing some of the previous indirect
time as direct time. Figure 7 depicts our recalculation of direct time based on direct time
categories from prior years, to present consistent data for the 10 years included in the graph.
                             Collection                                                    Examination

   65%


   60%


   55%


   50%

   45%


   40%


   35%


   30%
     FY 1999    FY 2000     FY 2001       FY 2002     FY 2003     FY 2004        FY 2005      FY 2006     FY 2007       FY 2008

  Source: TIGTA analysis of Collection Report 5000-23 and Examination Table 37.

Figure 8. Average Dollars Collected per Staff Year on TDAs by the CFf. The average
amount collected by the CFf for each staff year is 92 percent higher than in FY 1999. However,
it decreased by approximately 8 percent in FY 2008.
   $600,000


   $550,000                                                                      $576,777
                                                                                                         $567,733
                                                                                             $554,909

   $500,000                                                                                                         $520,446


   $450,000
                                                                      $451,100
   $400,000
                                                           $416,450

   $350,000
                                                 $353,755
                                      $331,603
   $300,000
                          $293,686
   $250,000    $271,110


   $200,000
               FY 1999    FY 2000    FY 2001     FY 2002    FY 2003   FY 2004    FY 2005      FY 2006    FY 2007     FY 2008

  Source: TIGTA analysis of Collection Reports 5000-2 and 5000-23.

                                                                                                                         Page 24
                                                        Trends in Compliance Activities Through Fiscal Year 2008




Figure 9. Total Dollars Collected on TDAs by the CFf and ACS. The combined amount
collected by the CFf and ACS increased each year from FY 2000 through FY 2007, but then
decreased almost 12 percent in FY 2008. The percentage decrease was similar for both the CFf
and ACS during FY 2008.
                                                        CFf Amount Collected                                                      ACS Amount Collected

                                  $7,000,000



                                  $6,000,000                                                                                                               $2,682,982
                                                                                                                                             $2,569,208
                                                                                                                               $1,941,210
  Dollars Collected (Thousands)




                                                                                                                                                                        $2,369,536
                                  $5,000,000
                                                                                                                  $1,669,735

                                                                                                     $1,515,953
                                  $4,000,000
                                                                          $1,275,111    $1,249,261
                                               $1,442,540                                                                      $3,906,915
                                                             $1,159,473                                                                     $3,600,957     $3,661,100
                                  $3,000,000                                                                      $3,392,249
                                                                                                                                                                        $3,234,843
                                                                                                   $3,083,984
                                                                                     $2,746,646
                                               $2,477,034
                                  $2,000,000
                                                                          $2,677,226
                                                            $2,447,824

                                  $1,000,000



                                          $0
                                               FY 1999       FY 2000       FY 2001      FY 2002       FY 2003      FY 2004      FY 2005      FY 2006       FY 2007       FY 2008

 Source: Collection Report 5000-2.

Figure 10. TDAs and TDIs in the Queue. The number of taxpayers with TDIs in the Queue
had significant spikes during FYs 1999 and 2000, and then decreased to remain at lower levels.
However, the overall trend showed an increase in the number of taxpayers with TDAs in the
Queue during FYs 1999 through 2008. This occurred even though, in recent years, the IRS
removed from the Queue a large number of cases that were considered to be potentially less
productive than other Queue inventory (see Figure 11). The increase in TDAs could be at least
partially attributed to the additional compliance assessments from working additional Substitute
for Return/6020(b) Return cases.
                                                       Taxpayers With TDAs                                                        Taxpayers With TDIs
  2,000,000

  1,800,000
                                                         1,876,629

  1,600,000

  1,400,000
                                           1,282,919

  1,200,000
                                                                                                                                                           998,287
                                                                                                     959,075
  1,000,000
                                                                                                                  838,090                    824,936                 981,317
                                                                                       767,459
                    800,000                                                                                                    716,315                 866,777
                                                                         821,188                                                         779,272                          850,850
                    600,000
                                                                                                 591,372       623,477      607,114
                                                       537,781       542,406       514,915
                    400,000
                                         445,877
                    200,000

                                     0
                                          FY 1999       FY 2000       FY 2001       FY 2002       FY 2003       FY 2004      FY 2005        FY 2006       FY 2007       FY 2008

 Source: Collection Reports 5000-2 and 5000-4.

                                                                                                                                                                             Page 25
                                      Trends in Compliance Activities Through Fiscal Year 2008




Figure 11. TDA and TDI Tax Periods Shelved or Surveyed Each Year. After increasing by
almost 120 percent during FY 2007, the total volume of TDA and TDI tax periods shelved or
surveyed decreased by 36 percent during FY 2008. However, the IRS has removed millions of
TDA and TDI tax periods from the Queue inventory in recent years.
                                          TDA Tax Periods                                                                      TDI Tax Periods
   8,000,000
                                                            7,099,437
   7,000,000


   6,000,000


   5,000,000


   4,000,000
                                                                                                                                                      2,954,149
   3,000,000
                                                                                                           2,197,884
                                     1,942,929                                            1,875,353
                                                      1,720,683              1,749,590
   2,000,000                                                                                                                                                         1,478,474
                                                                                                                        1,178,853      1,080,492
                           981,255               931,011
                                                                        1,567,023
   1,000,000
                                                                                    1,089,580         1,020,503                                                889,784
                       790,729                                                                                     788,083                      763,953
                                                                                                                                 613,036
                  0
                        FY 1999         FY 2000            FY 2001        FY 2002        FY 2003        FY 2004        FY 2005       FY 2006         FY 2007        FY 2008

  Source: TIGTA analysis of Collection Reports 5000-2 and 5000-4.

Figure 12. Gap Between TDI Tax Period Receipts and Closures. The volume of TDI
receipts decreased by 31 percent, while closures only decreased by 4 percent during FY 2008.
The closures shown in this figure do not include the TDIs shelved, which are shown in
Figure 11.
                                         TDI Module Receipts                                                                 TDI Module Closures

               6,000


               5,000


               4,000
   Thousands




               3,000


               2,000


               1,000


                  0
                  FY 1999         FY 2000            FY 2001            FY 2002          FY 2003         FY 2004        FY 2005            FY 2006        FY 2007        FY 2008


  Source: TIGTA analysis of Collection Report 5000-4.


                                                                                                                                                                          Page 26
                                       Trends in Compliance Activities Through Fiscal Year 2008




Figure 13. Number of TDI Tax Periods Closed, Excluding Shelved Accounts. After
showing an overall pattern of increasing since FY 2002, the number of TDI tax periods closed by
both the ACS and the CFf decreased during FYs 2007 and 2008. However, during FY 2008, the
number closed from the Queue increased, while the number closed by the Service Center
Collection Branch (SCCB) decreased. The SCCB increase in recent years is due in part to a
decision to work additional Substitute for Return/6020(b) Return cases.
                        ACS                                                          CFf                                                    Queue                                                       SCCB

  2,000,000
                                                                                                                                                                                                  1,905,891
                                                                                                                                                                                                                         1,822,665

  1,800,000


  1,600,000
                                                                                                                                                                                  1,437,981
              1,412,191
  1,400,000

                                                                                                                                                                      1,177,122
  1,200,000

                                                                                                                                                       964,287
  1,000,000
                                                                                                                                                                                              897,906
                                    820,573
                                                                                                                                                  769,185                                                      777,330
   800,000


   600,000                560,915                                                                                           561,342
                                                            512,636
                                                                                                                                        486,013
                                                                                                     450,042
                 584,397                380,675
                                                                                                                  362,333
   400,000                                                                         344,824                                                                                   799,556                                 765,844
                                                  256,058    403,942 252,453                                                                                                                        622,451
                                                                                                               432,839                406,293          392,672
                                                                                     377,010 186,295
   200,000          114,867                   342,594
                                                                  266,296                  325,841
                                                                                                          417,173              517,464               508,634              804,960                771,562          666,614
         0
                 FY 1999               FY 2000                 FY 2001                FY 2002             FY 2003              FY 2004               FY 2005              FY 2006                FY 2007          FY 2008

  Source: TIGTA analysis of Collection Report 5000-4.

Figure 14. Number of TDI Tax Periods Closed With Receipt of a Delinquent Tax Return.
The number of delinquent tax returns received decreased for the CFf, the ACS, and the SCCB
during FY 2008. However, the number closed from the Queue increased during FY 2008. The
SCCB increase in recent years is due in part to a decision to work additional Substitute for
Return/6020(b) Return cases.
                          ACS                                                        CFf                                                    Queue                                                       SCCB
  1,600,000
                                                                                                                                                                                                 1,484,351

  1,400,000
                                                                                                                                                                                                                   1,288,840

  1,200,000
                                                                                                                                                                                  1,067,238

  1,000,000

                                                                                                                                                            792,138
   800,000
              690,125


   600,000                          526,784                                                                                                                           539,116

                                                                                                                                                  455,594
                                                                                                                                                                                              398,812
                          356,580                                                                                                                                                                              375,333
   400,000                                                  338,979
                                                                                                                            318,773     335,002
                                                                                                     293,656
                                                                                                                                                                                                    249,177          265,789
                                                                  198,758          241,178 232,051             223,925                                                       222,485
                 210,714                  198,509
                                                                                                                                                        166,423
   200,000
                                                                         113,018              107,959                             241,617
                     71,828
                                                   159,963                                                          176,107
                                       164,796                 179,899                189,489             193,131              241,242               227,582              310,020                328,117          286,046
         0
                 FY 1999               FY 2000                 FY 2001                FY 2002             FY 2003              FY 2004               FY 2005              FY 2006                FY 2007          FY 2008

  Source: TIGTA analysis of Collection Report 5000-4.

                                                                                                                                                                                                                         Page 27
                                           Trends in Compliance Activities Through Fiscal Year 2008




Figure 15. Gap Between TDA Receipts and Closures. The gap between TDA receipts and
closures narrowed slightly in FY 2008 after widening substantially in FY 2007. However, the
number of receipts has been greater than the number of closures each year since FY 1999. The
closures shown in Figure 15 do not include the TDAs shelved (shown in Figure 11).
                                                  TDA Receipts                                        TDA Closures
                            8,000

                            7,000

                            6,000
   Thousands




                            5,000

                            4,000

                            3,000

                            2,000

                            1,000

                               0
                              FY 1999   FY 2000     FY 2001   FY 2002    FY 2003   FY 2004    FY 2005       FY 2006     FY 2007   FY 2008

  Source: TIGTA analysis of Collection Report 5000-2.

Figure 16. Number of Taxpayers and Amount Owed in the Queue. Between FYs 2005 and
2008, the number of taxpayers with TDAs in the Queue inventory increased by almost
62 percent, and the amount owed on those accounts increased by almost 113 percent. This
increase could be at least partially attributed to the additional compliance assessments from
working additional Substitute for Return/6020(b) Return cases.
                                                Amount Owed                                       Number of Taxpayers
                            $60                                                                                               1,000,000
                            $55                                                                                               950,000
                            $50                                                                                               900,000
                            $45                                                                                               850,000
   Amount Owed (Billions)




                                                                                                                                          Number of Taxpayers




                            $40                                                                                               800,000
                            $35                                                                                               750,000
                            $30                                                                                               700,000
                            $25                                                                                               650,000
                            $20                                                                                               600,000
                            $15                                                                                               550,000
                            $10                                                                                               500,000
                             $5                                                                                               450,000
                            $0                                                                                                400,000
                            FY 1999   FY 2000   FY 2001   FY 2002   FY 2003   FY 2004   FY 2005   FY 2006    FY 2007     FY 2008

  Source: Collection Report 5000-2.

                                                                                                                                    Page 28
                                      Trends in Compliance Activities Through Fiscal Year 2008




Figure 17. Number of TDAs Closed, Excluding Shelved Accounts. The number of TDAs
closed by the ACS and CFf decreased slightly in FY 2008. The number closed by the SCCB and
while in the Queue both increased in FY 2008.
                       ACS                                                CFf                                             Queue                                         SCCB

  3,500,000
                                                                                                                                                               3,492,343         3,462,345
                                                                                                                                               3,264,944
  3,000,000
                                                                                                                             3,052,010
                                                                                                          2,922,041


  2,500,000
                                                                                          2,555,754



  2,000,000
                                                   2,013,562        1,975,215
                  1,873,520     1,819,424

  1,500,000
                                                                                                                                                                    1,226,288       1,201,473
                                                                                                                                  1,080,980       1,097,181
                  951,984                                                                                       955,887
  1,000,000                                                                                  880,939
                                      771,455           757,392           724,430

                                                                                                                   435,376                           480,171           445,082         476,945
   500,000                                                                                                                           413,018
                                                                                304,304         343,555
                     117,862             165,380          256,452

                                            15,611                                                                    34,319             38,757            48,520          52,205            76,064
                         11,068                                13,403              9,820              26,662
         0

                  FY 1999             FY 2000           FY 2001           FY 2002            FY 2003            FY 2004           FY 2005         FY 2006           FY 2007         FY 2008

  Source: TIGTA analysis of Collection Report 5000-2.

Figure 18. Number of TDAs Closed by Full Payment. The total number of TDAs closed by
full payment increased by approximately 21 percent in FY 2008. Since FY 2002, there had been
a steady increase in the number of accounts closed by full payment by the ACS and CFf, but in
FY 2008 the number in the CFf dropped by almost 10 percent.
                         ACS                                               CFf                                             Queue                                          SCCB
  1,400,000

                                                                                                                                                                                 1,363,866
  1,200,000

                                                                                                                                                               1,017,683
  1,000,000                                                                                                                                     935,117
                                                                                                                               847,537
                                                                                                               784,124
    800,000                                         742,563                                723,659
                    688,622       679,872
                                                                        644,301

    600,000


                                                                                                                                   390,521         396,604          398,316
    400,000                                                                                                      346,650                                                            359,959
                                                                                              330,934
                   275,981            235,797           239,503            269,139
                                                                                                                                                     195,131           193,021         216,316
                                                                                                                   180,387           169,356
    200,000             33,064            56,358               98,843           132,270         141,373

                                                                                                                                                                           29,430        47,088
                              5,163             7,954             6,766              4,909            12,466             13,177          16,196            20,883
              0
                     FY 1999           FY 2000           FY 2001            FY 2002            FY 2003            FY 2004           FY 2005         FY 2006           FY 2007        FY 2008

  Source: TIGTA analysis of Collection Report 5000-2.

                                                                                                                                                                                         Page 29
                           Trends in Compliance Activities Through Fiscal Year 2008




Figure 19. Liens Filed by the CFf and ACS. During the year, the total number of liens filed
increased by more than 12 percent. The number of liens filed by the ACS increased by more
than 22 percent, and those filed by the CFf increased by almost 6 percent.
                                    CFf                                                                   ACS
    900,000

    800,000

    700,000

    600,000                                                                                                                         338,272

    500,000                                                                                              280,925       276,247
                                                                   253,053     256,595
    400,000                                                                                 241,805
                                           211,367 245,734
    300,000
                             141,202                                                                                                429,896
                23,180                                                                                                 407,412
    200,000                                                                                              348,888
                                                                   291,263     277,797      281,082
    100,000                                           236,775
                                           214,799
                144,687 146,315
          0
               FY 1999 FY 2000 FY 2001 FY 2002 FY 2003 FY 2004 FY 2005 FY 2006 FY 2007 FY 2008

  Source: Small Business/Self-Employed Division Collection Planning and Analysis, Collection National Reports.

Figure 20. Levies Issued by the CFf and ACS. The total number of levies issued by the CFf
and ACS increased dramatically from FYs 2000 through 2006, then remained at a similar level
for FY 2007 before dropping substantially in FY 2008. The substantial decrease was in the ACS.
Levies issued by the CFf have steadily increased since FY 2003.
                                   CFf                                                                    ACS
  4,000,000

  3,500,000                                                                                                3,496,519
                                                                                                                        3,447,375

  3,000,000

  2,500,000                                                                                  2,535,063
                                                                                                                                     2,257,010

  2,000,000
                                                                                1,861,467
  1,500,000                                                        1,538,094
                                                       1,140,487
  1,000,000
                397,656                     533,405

    500,000                   144,881

                                                                                                     245,757       309,815       374,028
                          74,897        140,675   143,255    142,750       168,146      208,514
              106,747
         0
               FY 1999 FY 2000 FY 2001 FY 2002 FY 2003 FY 2004 FY 2005 FY 2006 FY 2007 FY 2008

  Source: Small Business/Self-Employed Division Collection Planning and Analysis, Collection National Reports.

                                                                                                                                           Page 30
                      Trends in Compliance Activities Through Fiscal Year 2008




Figure 21. Number of Seizures Made Each Fiscal Year. The number of seizures made
showed an upward trend that had occurred since FY 2000, but then dropped almost 10 percent in
FY 2008.
  800


  700                                                                                           676

                                                                                                           610
                                                                                    590
  600
                                                                          512
  500
                                                                 440
                                                       399
  400
                                             296
  300
                                234

  200     161

  100                74


    0
         FY 1999   FY 2000    FY 2001      FY 2002   FY 2003   FY 2004   FY 2005   FY 2006    FY 2007     FY 2008

  Source: IRS Data Book.

Figure 22. Examination Coverage of All Tax Returns – Percentage Change From FY 1999.
Examination coverage of tax returns reached a 10-year low in FY 2000. Since then, the growth
in coverage outpaced the growth in returns filed until FY 2008, when the percentage examined
dropped slightly.
                          Returns Filed                                      Returns Examined
   30%

   20%

   10%

    0%

  -10%

  -20%

  -30%

  -40%

  -50%
     FY 1999    FY 2000      FY 2001      FY 2002    FY 2003   FY 2004   FY 2005    FY 2006     FY 2007     FY 2008

  Source: TIGTA analysis of IRS Data Book.

                                                                                                              Page 31
                      Trends in Compliance Activities Through Fiscal Year 2008




Figure 23. Revenue Agent Results on U.S. Individual Income Tax Returns (Form 1040),
Excluding Training Returns – Percentage Change From FY 1999. The hours per return and
dollars per return decreased in FY 2008. The combined effect resulted in a decrease in dollars
per hour of 22 percent.
                Hours per Return                 Dollars per Hour                Dollars per Return
  350%

  300%

  250%

  200%

  150%

  100%

   50%

    0%

   -50%
      FY 1999   FY 2000    FY 2001    FY 2002   FY 2003   FY 2004    FY 2005   FY 2006   FY 2007      FY 2008

  Source: TIGTA analysis of Examination Table 37.

Figure 24. Revenue Agent Results on Corporate Income Tax Returns, Excluding Training
Returns – Percentage Change From FY 1999. The hours per return and dollars per return both
increased during the year. The combined effect resulted in an increase in dollars per hour of
almost 5 percent in FY 2008.
                Hours per Return                 Dollars per Hour                Dollars per Return
   500%


   400%


   300%


   200%


   100%


     0%


  -100%
      FY 1999    FY 2000    FY 2001   FY 2002   FY 2003    FY 2004   FY 2005   FY 2006   FY 2007      FY 2008

  Source: TIGTA analysis of Examination Table 37.

                                                                                                       Page 32
                      Trends in Compliance Activities Through Fiscal Year 2008




Figure 25. Revenue Agent Results on Other Types of Tax Returns, Excluding Training
Returns – Percentage Change From FY 1999. The hours per return and dollars per return both
increased during the year. The combined effect resulted in an increase in dollars per hour of
almost 6 percent in FY 2008.
                Hours per Return                Dollars per Hour               Dollars per Return
  100%

   80%

   60%

   40%

   20%

    0%

   -20%

   -40%
      FY 1999   FY 2000    FY 2001   FY 2002   FY 2003   FY 2004   FY 2005   FY 2006   FY 2007      FY 2008

  Source: TIGTA analysis of Examination Table 37.

Figure 26. Tax Compliance Officer Results on Forms 1040, Excluding Training Returns –
Percentage Change From FY 1999. The hours per return and dollars per return both increased
during the year. The combined effect resulted in an increase in dollars per hour of almost
11 percent in FY 2008.
                Hours per Return                Dollars per Hour               Dollars per Return
  120%

  100%

   80%

   60%

   40%

   20%

    0%

   -20%

   -40%
      FY 1999   FY 2000    FY 2001   FY 2002   FY 2003   FY 2004   FY 2005   FY 2006   FY 2007      FY 2008

  Source: TIGTA analysis of Examination Table 37.

                                                                                                     Page 33
                         Trends in Compliance Activities Through Fiscal Year 2008




Figure 27. Number of Forms 1040 Examined Face-to-Face or Through Correspondence.
The total number of face-to-face examinations of individuals increased by about 2 percent, and
those conducted through correspondence was unchanged in FY 2008. Almost 82 percent of
Form 1040 examinations were conducted through correspondence. Due to a change in the
source of the data, numbers for FY 1999 were not available.
                          Face-to-Face                                                 Correspondence
  1,400,000

  1,200,000                                                                                              1,135,556 1,138,695
                                                                                            1,055,979
                                                                               1,007,891
  1,000,000
                                                                     828,262
    800,000
                                                      675,637
                             585,753       583,323
    600,000
                 439,734
    400,000
                                                                                           227,971      249,007    252,886
               178,031                             173,659      168,766    191,144
                           146,003    160,558
    200,000

         0
               FY 2000      FY 2001      FY 2002     FY 2003     FY 2004        FY 2005     FY 2006      FY 2007    FY 2008

  Source: Analysis of Examination Closed Case Database and IRS Data Book.

Figure 28. Percentage of Forms 1040 Examined Face-to-Face or Through Correspondence.
During FY 2008, the coverage rates for face-to-face and correspondence examinations of
individual income tax returns decreased slightly. The coverage rate for examinations conducted
by correspondence more than doubled during the 9-year period, while face-to-face examinations
remained relatively constant. Due to a change in the source of the data, numbers for FY 1999
were not available.
                            Face-to-Face                                               Correspondence

  0.9%
                                                                                            0.80%    0.84%          0.83%
                                                                               0.77%
  0.8%

  0.7%                                                         0.64%

  0.6%
                                              0.52%
                   0.46%         0.45%
  0.5%

  0.4%
         0.35%
  0.3%
                                                                                            0.17%     0.19%         0.18%
  0.2%                                                                         0.15%
         0.14%    0.11%         0.12%         0.13%          0.13%
  0.1%

  0.0%
     FY 2000      FY 2001       FY 2002         FY 2003      FY 2004       FY 2005         FY 2006       FY 2007      FY 2008

  Source: Analysis of Examination Closed Case Database and IRS Data Book.

                                                                                                                       Page 34
                                                Trends in Compliance Activities Through Fiscal Year 2008




Figure 29. Examination Coverage of Forms 1040. After remaining relatively unchanged for
3 years, the number of Forms 1040 filed increased in each of the last 3 fiscal years. The growth
in the number of Forms 1040 examined has slowed since FY 2005 and increased by less than
1 percent in FY 2008.
                                                      Returns Filed                                           Returns Examined
                                140,000                                                                                                    2,800


                                120,000                                                                                                    2,400




                                                                                                                                                   Returns Examined (Thousands)
    Returns Filed (Thousands)




                                100,000                                                                                                    2,000


                                 80,000                                                                                                    1,600


                                 60,000                                                                                                    1,200


                                 40,000                                                                                                    800


                                 20,000                                                                                                    400


                                      0                                                                                                    0
                                     FY 1999   FY 2000   FY 2001      FY 2002   FY 2003   FY 2004   FY 2005     FY 2006   FY 2007     FY 2008

  Source: TIGTA analysis of IRS Data Book.

Figure 30. Examination Coverage of Forms 1040 – Percentage Change From FY 1999.
Examination coverage of Forms 1040 reached a 10-year low in FY 2000, but the growth in
coverage has outpaced the growth in the number of Forms 1040 filed each year since FY 2002
until FY 2008, when the audit rate decreased slightly.
                                                    Returns Filed                                        Returns Examined
    40%

    30%

    20%

    10%

                    0%

   -10%

   -20%

   -30%

   -40%

   -50%

   -60%
                                FY 1999   FY 2000     FY 2001       FY 2002     FY 2003   FY 2004    FY 2005       FY 2006       FY 2007   FY 2008

  Source: TIGTA analysis of IRS Data Book.

                                                                                                                                             Page 35
                           Trends in Compliance Activities Through Fiscal Year 2008




Figure 31. Examination Coverage of Corporate Income Tax Returns – Percentage Change
From FY 1999. Overall, the number of corporate tax returns filed [excluding U.S. Income Tax
Return for an S Corporation (Form 1120S) and U.S. Income Tax Return for a Foreign
Corporation (Form 1120-F)] continued to decrease during FY 2008, while the percentage of
those tax returns examined increased. Overall, about 1 of every 74 corporate tax returns was
examined.
                              Returns Filed                                         Returns Examined
     0%

    -10%

    -20%

    -30%

    -40%

    -50%

    -60%

    -70%

    -80%

    -90%

   -100%
       FY 1999     FY 2000      FY 2001       FY 2002   FY 2003      FY 2004    FY 2005   FY 2006      FY 2007    FY 2008

  Source: TIGTA analysis of IRS Data Book.

Figure 32. Percentage of Corporate Income Tax Returns Examined – Corporations With
Assets of Less Than $10 Million. During FY 2008, the overall examination coverage rate for
all categories of corporate tax returns increased, except for those with no balance sheet (which
decreased).
   12%
                                                                                                                 Assets
                                                                                                                 $5M <
                                                                                                                 $10M
   10%
                                                                                                                 Assets
                                                                                                                 $1M <
    8%                                                                                                           $5M

                                                                                                                 Assets
    6%                                                                                                           $250,000
                                                                                                                 < $1M


    4%                                                                                                           Assets
                                                                                                                 Under
                                                                                                                 $250,000

    2%
                                                                                                                 No
                                                                                                                 Balance
                                                                                                                 Sheet
    0%
    FY 1999      FY 2000    FY 2001   FY 2002    FY 2003   FY 2004    FY 2005   FY 2006   FY 2007   FY 2008

  Source: TIGTA analysis of IRS Data Book.

                                                                                                                    Page 36
                                                 Trends in Compliance Activities Through Fiscal Year 2008




Figure 33. Percentage of Corporate Income Tax Returns Examined – Corporations With
Assets of $10 Million and Greater. During FY 2008, the overall examination coverage rate for
corporate tax returns with assets of $10 million and greater decreased by approximately
9 percent. The rate for those returns in most categories increased, except for those with assets of
at least $10 million but less than $50 million (which decreased by almost 22 percent).
   50%
                                                                                                                                            Assets
   45%
                                                                                                                                            $250M &
                                                                                                                                            Over
   40%

   35%
                                                                                                                                            Assets
                                                                                                                                            $100M <
   30%
                                                                                                                                            $250M
   25%
                                                                                                                                            Assets
   20%
                                                                                                                                            $50M <
                                                                                                                                            $100M
   15%

   10%
                                                                                                                                            Assets
                                                                                                                                            $10M <
         5%                                                                                                                                 $50M

         0%
          FY 1999                      FY 2000    FY 2001   FY 2002      FY 2003   FY 2004   FY 2005     FY 2006     FY 2007    FY 2008

  Source: TIGTA analysis of IRS Data Book.

Figure 34. Examination Coverage of Corporations With Assets of Less Than $10 Million.
The number of corporate tax returns filed with assets of less than $10 million dropped slightly
during the year, while the number of tax returns examined increased by almost 3 percent.
                                                     Returns Filed                                           Returns Examined
                               3,000                                                                                                          150


                               2,500                                                                                                          125   Returns Examined (Thousands)
   Returns Filed (Thousands)




                               2,000                                                                                                          100


                               1,500                                                                                                          75


                               1,000                                                                                                          50


                                500                                                                                                           25


                                  0                                                                                                            0
                                 FY 1999   FY 2000    FY 2001        FY 2002   FY 2003   FY 2004       FY 2005     FY 2006     FY 2007    FY 2008

  Source: TIGTA analysis of IRS Data Book.


                                                                                                                                              Page 37
                                              Trends in Compliance Activities Through Fiscal Year 2008




Figure 35. Examination Coverage of Corporations With Assets of $10 Million and Greater.
During FY 2008, the number of corporate tax returns filed with assets of $10 million and greater
increased by 7 percent, while the number of returns examined decreased by 2 percent.
                                                        Returns Filed                                 Returns Examined
                               70                                                                                                       35


                               60                                                                                                       30




                                                                                                                                             Returns Examined (Thousands)
   Returns Filed (Thousands)




                               50                                                                                                       25


                               40                                                                                                       20


                               30                                                                                                       15


                               20                                                                                                       10


                               10                                                                                                       5


                                0                                                                                                        0
                               FY 1999   FY 2000     FY 2001       FY 2002   FY 2003   FY 2004   FY 2005    FY 2006      FY 2007    FY 2008

  Source: TIGTA analysis of IRS Data Book.

Figure 36. Examination Coverage of Forms 1120S – Percentage Change From FY 1999.
Although the coverage rate increased while examinations of Forms 1120S were being conducted
as part of a National Research Project, the coverage rate decreased by approximately 11 percent
in FY 2008.
                                                   Returns Filed                                     Returns Examined
       80%

       60%

       40%

       20%

                       0%

   -20%

   -40%

   -60%

   -80%
      FY 1999                            FY 2000     FY 2001       FY 2002   FY 2003   FY 2004    FY 2005    FY 2006      FY 2007    FY 2008

  Source: TIGTA analysis of IRS Data Book.

                                                                                                                                       Page 38
                                              Trends in Compliance Activities Through Fiscal Year 2008




Figure 37. Examination Coverage of Forms 1120S. The number of Forms 1120S filed has
increased at an average rate of nearly 173,000 returns per year since FY 1999, to approximately
4.1 million in FY 2008. The number of returns examined decreased by almost 6 percent during
the year and only about 1 of every 250 Forms 1120S was examined during FY 2008.
                                                     Returns Filed                                   Returns Examined
                               5,000                                                                                              50




                                                                                                                                        Returns Examined (Thousands)
                               4,000                                                                                              40
   Returns Filed (Thousands)




                               3,000                                                                                              30



                               2,000                                                                                              20



                               1,000                                                                                              10



                                  0                                                                                               0
                                 FY 1999   FY 2000    FY 2001    FY 2002   FY 2003   FY 2004   FY 2005   FY 2006   FY 2007   FY 2008

  Source: IRS Data Book.

Figure 38. Examination Coverage of Partnership Income Tax Returns. The number of
partnership tax returns filed has increased at an average rate of nearly 143,000 per year since
FY 1999, to approximately 3.1 million in FY 2008. The number of returns examined increased
by 112 percent since FY 2004, but only about 1 of every 238 partnership returns was examined
during FY 2008.
                                                     Returns Filed                                   Returns Examined
                               3,500                                                                                             15


                               3,000
                                                                                                                                       Returns Examined (Thousands)




                                                                                                                                 13
   Returns Filed (Thousands)




                               2,500
                                                                                                                                 10

                               2,000
                                                                                                                                 8
                               1,500

                                                                                                                                 5
                               1,000

                                                                                                                                 3
                                500


                                  0                                                                                               0
                                 FY 1999   FY 2000    FY 2001    FY 2002   FY 2003   FY 2004   FY 2005   FY 2006   FY 2007   FY 2008

  Source: IRS Data Book.

                                                                                                                                  Page 39
                                               Trends in Compliance Activities Through Fiscal Year 2008




Figure 39. Examination Coverage of Fiduciary Income Tax Returns. During FY 2008, the
number of income tax returns filed by estates and trusts decreased slightly, and the number of tax
returns examined increased slightly. Only about 1 of every 814 fiduciary income tax returns was
examined.
                                                     Returns Filed                                   Returns Examined
                               4,000                                                                                                10




                                                                                                                                               Returns Examined (Thousands)
                               3,000                                                                                                8
   Returns Filed (Thousands)




                               2,000                                                                                                6




                               1,000                                                                                                4




                                  0                                                                                                  2
                                 FY 1999   FY 2000    FY 2001    FY 2002   FY 2003   FY 2004   FY 2005    FY 2006    FY 2007    FY 2008

  Source: IRS Data Book.

Figure 40. Examination Coverage of Employment Tax Returns. The number of
employment tax returns filed decreased slightly this year, while the number of tax returns
examined increased by approximately 6 percent. About 1 of every 509 employment tax returns
was examined.
                                                     Returns Filed                                   Returns Examined
                               35.0                                                                                                80


                               30.0                                                                                                70
                                                                                                                                         Returns Examined (Thousands)




                               25.0                                                                                                60
  Returns Filed (Millions)




                               20.0                                                                                                50


                               15.0                                                                                                40


                               10.0                                                                                                30


                                5.0                                                                                                20


                                0.0                                                                                                 10
                                FY 1999    FY 2000   FY 2001    FY 2002    FY 2003   FY 2004   FY 2005   FY 2006    FY 2007    FY 2008

 Source: IRS Data Book.

                                                                                                                                   Page 40
                                               Trends in Compliance Activities Through Fiscal Year 2008




Figure 41. Examination Coverage of Excise Tax Returns. The number of excise tax returns
filed decreased slightly, while the number examined decreased by approximately 55 percent
during FY 2008.
                                                      Returns Filed                                 Returns Examined
                                 900                                                                                             45

                                 800                                                                                             40




                                                                                                                                       Returns Examined (Thousands)
                                 700                                                                                             35
    Returns Filed (Thousands)




                                 600                                                                                             30

                                 500                                                                                             25

                                 400                                                                                             20

                                 300                                                                                             15

                                 200                                                                                             10

                                 100                                                                                             5

                                  0                                                                                              0
                                 FY 1999   FY 2000    FY 2001   FY 2002   FY 2003   FY 2004   FY 2005   FY 2006   FY 2007   FY 2008

  Source: IRS Data Book.

Figure 42. Examination Coverage of Estate Tax Returns. During FY 2008, the number of
estate tax returns filed decreased by approximately 21 percent, and the number of returns
examined decreased by almost 17 percent. About 1 of every 12 estate tax returns was examined.
                                                     Returns Filed                                  Returns Examined
                                140                                                                                             70


                                120                                                                                             60
                                                                                                                                      Returns Examined (Thousands)
   Returns Filed (Thousands)




                                100                                                                                             50


                                80                                                                                              40


                                60                                                                                              30


                                40                                                                                              20


                                20                                                                                              10


                                 0                                                                                               0
                                FY 1999    FY 2000   FY 2001    FY 2002   FY 2003   FY 2004   FY 2005   FY 2006   FY 2007   FY 2008

  Source: IRS Data Book.

                                                                                                                                 Page 41
                                                    Trends in Compliance Activities Through Fiscal Year 2008




Figure 43. Examination Coverage of Gift Tax Returns. The number of gift tax returns filed
decreased by 3 percent during FY 2008. However, the number of returns examined decreased by
approximately 28 percent.
                                                         Returns Filed                                                        Returns Examined
                                400                                                                                                                                 4.0

                                350                                                                                                                                 3.5




                                                                                                                                                                          Returns Examined (Thousands)
    Returns Filed (Thousands)




                                300                                                                                                                                 3.0

                                250                                                                                                                                 2.5

                                200                                                                                                                                 2.0

                                150                                                                                                                                 1.5

                                100                                                                                                                                 1.0

                                50                                                                                                                                  0.5

                                 0                                                                                                                                0.0
                                FY 1999      FY 2000     FY 2001         FY 2002       FY 2003       FY 2004           FY 2005    FY 2006      FY 2007       FY 2008

    Source: IRS Data Book.

Figure 44. Other Compliance Contacts on Forms 1040. The number of contacts for Math
Error Program and Automated Substitute for Return system1 cases decreased slightly during
FY 2008. The numbers of contacts for Underreporter Program cases increased. The spike in the
number of contacts for Math Error Program cases in FY 2002 was the result of taxpayer
confusion over the Rate Reduction Credit. Much of the spike in FY 2004 was due to Child Tax
Credit issues.
                                       14,000,000



                                       12,000,000



                                       10,000,000



                                        8,000,000



                                        6,000,000



                                        4,000,000



                                        2,000,000



                                               0
                                                    FY 1999   FY 2000     FY 2001     FY 2002    FY 2003     FY 2004    FY 2005   FY 2006   FY 2007    FY 2008

                                             FY 1999     FY 2000        FY 2001      FY 2002      FY 2003      FY 2004      FY 2005     FY 2006       FY 2007     FY 2008
                          Math Error        6,552,290   5,751,462   6,082,967       13,315,765   4,024,981     7,342,484    3,163,794   3,159,077     2,965,745   2,801,427
                          Underreporter     1,770,695   1,353,545   1,161,901       1,491,139    1,561,068     1,948,363    2,837,149   3,209,000     3,403,000   3,530,000
                          ASFR               584,142     332,427        333,770      242,637      335,032       326,407     820,845     1,253,000     1,356,000   1,300,000


    Source: IRS Data Book. ASFR = Automated Substitute for Return system.


1
 The IRS adjusted how these cases are captured. We used revised numbers for FYs 2003 through 2005 to be
consistent with the other fiscal years.
                                                                                                                                                                    Page 42
                     Trends in Compliance Activities Through Fiscal Year 2008




Figure 45. Other Compliance Contacts – Percentage of Form 1040 Coverage. The level of
coverage for Math Error Program and Automated Substitute for Return cases decreased slightly
in FY 2008. However, the level of coverage for Underreporter Program cases was unchanged.
The Math Error Program aberrations in FYs 2002 and 2004 are explained in Figure 44.
                    FY 1999 FY 2000 FY 2001 FY 2002 FY2003 FY 2004 FY 2005 FY 2006 FY 2007 FY 2008

  Math Error        6,552,290   5,751,462   6,082,967    13,315,765   4,024,981 7,342,484     3,163,794   3,159,077   2,965,745   2,801,427
    Coverage Rate      5.25%       4.53%       4.70%        10.22%      3.08%        5.59%       2.38%       2.36%       2.21%       2.02%

  Underreporter     1,770,695   1,353,545    1,161,901    1,491,139   1,561,068   1,948,363   2,837,149   3,209,000   3,403,000   3,530,000
    Coverage Rate      1.44%       1.08%       0.91%          1.15%      1.20%       1.49%       2.16%       2.42%       2.54%       2.54%

  AS FR               584,142    332,427     333,770       242,637     335,032     326,407     820,845    1,253,000   1,356,000   1,300,000
    Coverage Rate      0.48%       0.27%       0.26%         0.19%      0.26%        0.25%       0.63%       0.94%        1.01%      0.94%

 Source: TIGTA analysis of IRS Data Book. ASFR = Automated Substitute for Return system.




                                                                                                                                   Page 43
                              Trends in Compliance Activities Through Fiscal Year 2008




   Figure 46. Numbers and Percentages of Individual and Business Tax Returns Examined.
   Numbers and percentages of examination coverage.
                    FY 1999     FY 2000    FY 2001   FY 2002   FY 2003   FY 2004     FY 2005     FY 2006     FY 2007     FY 2008

 Individual Returns
 Individuals
  (Forms 1040)      1,100,273    617,765   731,756   743,881   849,296   1,007,874   1,215,308   1,283,950   1,384,563   1,391,581

   Coverage Rate       0.90%      0.49%      0.58%     0.57%     0.65%      0.77%       0.93%       0.97%       1.03%       1.01%



 Business Returns
 Corporations
  Less Than
  $10 Million         28,268      18,623    14,332    14,655    13,608      7,294      17,858      17,849      20,020      20,580

   Coverage Rate       1.16%      0.77%      0.60%     0.63%     0.58%      0.32%       0.79%       0.80%       0.92%       0.95%
 Corporations
  $10 Million and
  Greater             10,537       9,212     8,718     8,443     7,125      9,523      10,829      10,578       9,644       9,406

   Coverage Rate      19.05%     16.30%     15.08%    14.17%    12.08%     16.74%      20.02%      18.60%      16.81%      15.26%
 S Corporations
  (Forms 1120S)       21,169      15,200    12,437    11,646     9,695      6,402      10,417      13,970      17,657      16,634

   Coverage Rate       0.81%      0.55%      0.43%     0.39%     0.30%      0.19%       0.30%       0.38%       0.45%       0.40%

 Partnerships          7,991       6,539     5,070     5,543     7,871      6,226       8,489       9,752      12,195      13,203

   Coverage Rate       0.43%      0.33%      0.25%     0.26%     0.35%      0.26%       0.33%       0.36%       0.42%       0.42%

 Fiduciaries           6,382       7,318     7,070     7,206     6,068      4,438       6,591       3,669       4,544       4,582

   Coverage Rate       0.19%      0.22%      0.20%     0.18%     0.17%      0.12%       0.18%       0.10%       0.12%       0.12%

 Employment           28,898      20,074    17,163    17,252    16,408     17,698      33,748      41,646      56,738      60,346

   Coverage Rate       0.10%      0.07%      0.06%     0.06%     0.06%      0.06%       0.11%       0.13%       0.18%       0.20%

 Excise               12,562      10,294     8,169     8,426     8,756     12,560      16,563      16,678      36,018      16,134

   Coverage Rate       1.53%      1.25%      0.96%     1.03%     1.05%      1.49%       1.98%       1.99%       4.02%       1.80%

 Estates               9,319       8,024     7,707     7,151     7,265      6,455       6,081       5,299       4,616       3,852

   Coverage Rate       8.46%      6.89%      6.24%     5.84%     6.38%      7.41%       8.20%       9.66%       7.70%       8.14%

 Gift                  2,369       2,097     2,005     1,899     1,855      1,979       2,125       2,051       1,490       1,071

   Coverage Rate       0.91%      0.72%      0.65%     0.63%     0.66%      0.69%       0.81%       0.77%       0.56%       0.42%
Source: TIGTA analysis of IRS Data Book




                                                                                                                   Page 44
                  Trends in Compliance Activities Through Fiscal Year 2008




                                                                           Appendix VI

         Prior Treasury Inspector General for Tax
        Administration Compliance Trends Reports

Management Advisory Report: Evaluation of Reduction in the Internal Revenue Service’s
Compliance Activities (Reference Number 2000-30-075, dated May 12, 2000).
Management Advisory Report: Tax Return Filing and Examination Statistics (Reference
Number 2001-30-175, dated September 21, 2001).
Management Advisory Report: Analysis of Trends in Compliance Activities Through Fiscal
Year 2001 (Reference Number 2002-30-184, dated September 30, 2002).
Trends in Compliance Activities Through Fiscal Year 2002 (Reference Number 2003-30-078,
dated March 31, 2003).
Trends in Compliance Activities Through Fiscal Year 2003 (Reference Number 2004-30-083,
dated April 23, 2004).
Trends in Compliance Activities Through Fiscal Year 2004 (Reference Number 2005-30-055,
dated March 30, 2005).
Trends in Compliance Activities Through Fiscal Year 2005 (Reference Number 2006-30-055,
dated March 27, 2006).
Trends in Compliance Activities Through Fiscal Year 2006 (Reference Number 2007-30-056,
dated March 27, 2007).
Trends in Compliance Activities Through Fiscal Year 2007 (Reference Number 2008-30-095,
dated April 18, 2008).




                                                                                      Page 45
